                                             ADVISORY




RECOVERY OVERSIGHT ADVISORY
National Park Service Contract C2011101023




Report No.: RO-D-NPS-067-2011                  June 2011
              OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR

                                                                                   JUN 06 2011

To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus ,.

From:          RobertA.  Kn~ I:>- ~
               Assistant Inspector General for Recove, y Oversight

Subject:       Recovery Oversight Advisory - National Park Service Contract C2011101023
               Report No. RO-D-NPS-067-2011

        This advisory, which addresses concerns regarding the construction of a museum
collection facility at the Hopewell Culture National Historic Park (HCNHP) in Ross County,
OH, is part of our ongoing effort to oversee and ensure the accountability of funding
appropriated to the U.S. Department of the Interior (DOl) in the American Recovery and
Reinvestment Act of2009 (Recovery Act).

Background

        On April 14, 2011 , we received a complaint regarding the possible violation ofthe Davis-
Bacon Act, a Federal law which requires the payment of prevailing wage on public works
projects. The complainant reported that Chillicothe Fire & Security, Inc. (CF&S), a
subcontractor to Hammer LCG, Incorporated (Hammer), failed to pay their employees the
prevailing wages established by the U.S. Department of Labor.

         We learned that Hammer won a sole source 8(a) set-aside Recovery Act contract, number
C2011101023, in the amount of $1 ,366,244.20 for the construction of a museum collection
facility at HCNHP. Hammer subcontracted with SOS Electric, Inc. (SOS), who then
subcontracted the fire alarm installation work to CF&S.

Findings

Davis-Bacon Act Compliance

        We reviewed the weekly certified payroll documents submitted by CF&S and found that
CF &S violated provisions of the Davis-Bacon Act by not paying their employees the prevailing
wages established by the U.S. Department of Labor for Ross County, OH, as required by Section
1606 of the Recovery Act. During the installation of the fire alarm equipment, CF &S employed
four employees - three cable pullers and one installer. Figure 1 depicts a review of the weekly
certified payroll documents.




                               Recovery OverSight Office I Washington, DC
                                              DOL
                       CF&S Rate +
      Employee                             Prevailing            Difference   Hours   Total Owed
                         Fringe
                                          Rate + Fringe
 Cable Puller #1           $15.75             $17.13               $1.38      40.75       $56.24
 Cable Puller #2           $12.00             $17.13               $5.13      23.50       $120.56
 Cable Puller #3           $9.00              $17.13               $8.13       3           $24.39
 Installer                 $24.86             $27.05               $2.19      16           $35.04
 TOTAL                                                                                    $236.23

Figure 1. Analysis of CF&S weekly certified payroll documents.

         On May 2, 2011, CF&S provided confirmation that it paid the outstanding amounts owed
to their employees.

Construction Management Representative

        The Construction Management Representative (CMR) identified the discrepancy in wage
rates paid and those required by the Davis-Bacon Act during routine labor standards interviews
of the on-site workers. The CMR notified CF&S management. CF&S management
acknowledged that they were not aware of the requirement, which led to their mistake, and
pending final payment from SOS, prepared checks in February 2011 for wages owed to their
employees. CF&S forwarded the checks to their employees after we made initial contact.

        No response to this advisory is required; however, we do suggest the following:

        1. Disseminate guidance to educate prime contractors on their responsibility to inform
           and oversee that subcontractors pay employees in accordance with the applicable,
           prevailing wage rates and fringe benefits required by the Recovery Act; and

        2. Remind contracting officers to provide timely and sufficient oversight regarding the
           payment of proper wages and fringe benefits to both prime and subcontractor
           employees.

        We will post this advisory on our Web site (www.doioig.gov/recovery/) and
Recovery.gov. Information contained in this advisory may also be included in our semiannual
reports to Congress. We performed our work in accordance with the applicable Quality
Standards adopted by the Council of the Inspectors General on Integrity and Efficiency. Please
contact me if you have any questions.

cc:     Deputy Secretary, U.S. Department of the Interior
        Director, Office of Executive Secretariat and Regulatory Affairs
        Director, National Park Service
        Assistant Secretary for Policy, Management and Budget
        Acting Director, Office of Financial Management
        Director, Office of Acquisition and Property Management


                                                                                                    2
Assistant District Director, U.S. Department of Labor
Departmental GAO/OIG Audit Liaison
Audit Liaison, Office of the Secretary
Audit Liaison, National Park Service
Recovery Liaison, National Park Service




                                                        3
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
